DOE/IG-0478




                                    INSPECTION ON THE
INSPECTION                    REVIEW OF SCIENTIFIC INTEGRITY
  REPORT                                 ISSUES AT
                                   LAWRENCE BERKELEY
                                  NATIONAL LABORATORY




                                        JULY 2000




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
    OFFICE OF INSPECTIONS
                                  Department of Energy
                                      Washington, DC 20585


                                           July 28, 2000

MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman /s/
                       Inspector General

SUBJECT:               INFORMATION: Report on “Inspection on the Review of Scientific
                       Integrity Issues at Lawrence Berkeley National Laboratory”

BACKGROUND

The Office of Inspector General initiated an inspection into issues relating to allegations of
scientific misconduct on the part of a research scientist at the Lawrence Berkeley National
Laboratory (Berkeley). This was done in response to your request.

RESULTS OF INSPECTION

The inspection disclosed the following information:

•   Berkeley had established appropriate policies and procedures for dealing with allegations of
    scientific misconduct. These were in accord with Title 42 Code of Federal Regulations Part
    50, Subpart A (42 CFR Part 50), the Department of Health and Human Services’ policy on
    scientific misconduct.

•   Berkeley through an internal investigation concluded the research scientist had, in fact,
    engaged in scientific misconduct. We found that the investigation was consistent with
    Berkeley’s own policies and procedures and 42 CFR Part 50. An oversight review by the
    Office of Research Integrity, Department of Health and Human Services, affirmed the
    findings and conclusions of Berkeley’s investigation.

•   At the time, the Department did not have a policy for addressing allegations of scientific
    misconduct. However, a Government-wide policy on research misconduct developed by the
    Office of Science and Technology Policy (OSTP), Executive Office of the President, is
    expected to be issued in the near future. The policy will require the Department and other
    Government agencies that conduct and support scientific research to develop and implement
    a policy on scientific misconduct. As noted in our report, the Department has initiated
    actions to implement the OSTP policy.

•   Largely because it had no policy regarding scientific misconduct, responsible Departmental
    personnel apparently believed that they had no obligation to take corrective action in
    response to Berkeley’s findings. More troubling, as a result of this management failure, the
    research scientist subsequently received over $900,000 in additional Department funds for
    research unrelated to the study investigated by Berkeley. We concluded that providing
    additional funding under the circumstances, specifically, without a thorough analysis of the
    situation from a Departmental perspective, was inappropriate.

The research scientist subsequently resigned from Berkeley. He also signed a “Voluntary
Exclusion Agreement” with the Office of Research Integrity. As part of the agreement, the
scientist neither admitted nor denied the finding of scientific misconduct, and he voluntarily
agreed to exclude himself for three years from any contracting or subcontracting with
Government agencies or get involved in Government non-procurement transactions. He also
agreed to retract the falsely reported data that had been published in two science journals.

We recommended that the Deputy Secretary select an office that will be responsible for
developing and implementing the Department’s policies and procedures on scientific
misconduct, consistent with OSTP guidelines when issued. We also recommended that the
Director of the Office of Procurement and Assistance Management, in coordination with the
General Counsel, modify the Department’s current management and operating contracts in order
to:

•   incorporate those provisions of the Department’s policies and procedures for addressing
    alleged scientific misconduct that describe contractor responsibilities for conducting inquiries
    and investigations when these policies and procedures are issued; and

•   require the Department to recover funds used to support research when the Department has
    determined that there has been scientific misconduct.

MANAGEMENT REACTION

The Under Secretary for Energy, Science and Environment has determined that the Office of
Science will be the lead organization administering the research misconduct review process for
the Department. The relationship between the Office of Science and the National Nuclear
Security Administration, as it relates to the Department’s policy regarding research misconduct,
has yet to be determined.

Management stated that the Department will ensure that any new Government-wide policy
applicable to the executive branch and relating to scientific misconduct is incorporated into its
management and operating contracts. This is to include, as well, any modification to
Government-wide cost principles developed in response to the new policy.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Under Secretary for Nuclear Security
    General Counsel
    Director, Office of Management and Administration
    Director, Office of Science
INSPECTION ON THE REVIEW OF SCIENTIFIC INTEGRITY
ISSUES AT LAWRENCE BERKELEY NATIONAL
LABORATORY

TABLE OF
CONTENTS
               Overview

               Introduction and Objectives ………………………………          1

               Observations and Conclusions …………………………..         2

               Details of Findings

               Allegation of Scientific Misconduct ……………..……….   5

               Department of Health and Human Services
               Policy for Addressing Allegations of
               Scientific Misconduct ……………………………………..            5

               Berkeley Policy for Addressing
               Allegations of Scientific Misconduct …………………….    5

               Actions Taken by Berkeley Upon Learning of
               Possible Scientific Misconduct by the
               Research Scientist ………………………………………..              5

               Department Policy for Addressing
               Allegations of Scientific Misconduct …………………….    6

               Actions Taken by Department Officials Upon
               Learning of Possible Scientific Misconduct
               by the Research Scientist ………………………………..          7

               Recovery of Department Funds Used by the
               Research Scientist ………………………………………..              8

               Recommendations ……………………………………… 10

               Management Reaction …………………………………. 11

               Inspector Comments …………………………………… 11

               Appendix

               A. Scope and Methodology ……………………………..            12
Overview
INTRODUCTION     On July 29, 1999, the Office of Inspector General, U. S.
AND OBJECTIVES   Department of Energy (Department), initiated an inspection into
                 issues relating to allegations of scientific misconduct on the part of
                 a Research Scientist at the Lawrence Berkeley National Laboratory
                 (Berkeley). The inspection was initiated at the request of the
                 Secretary of Energy.

                 The Research Scientist was alleged to have falsely reported and
                 published research data on projects funded by the Department and
                 another Government agency. Berkeley’s investigation and a
                 review by the Office of Research Integrity, Department of Health
                 and Human Services, concluded that the Research Scientist had
                 engaged in scientific misconduct by intentionally falsifying and
                 fabricating the reporting of his research data.

                 The Research Scientist received substantial funding from the
                 Department, other Government agencies, and private institutions
                 for his research projects. From 1984 to 1999, total funding for his
                 research projects was about $5.9 million dollars. The
                 Department’s funding totaled $3.1 million, Department of Health
                 and Human Services funding totaled just over $2 million, and
                 funding from other sources totaled $752,000.

                 The objectives of this inspection were to determine whether: 1)
                 Berkeley has policies and procedures for addressing scientific
                 misconduct issues and took appropriate action with regard to the
                 Research Scientist; 2) the Department has policies and procedures
                 for addressing scientific misconduct issues; and 3) the Department
                 could recover funds that it had awarded to Berkeley to support the
                 research that was allegedly falsified by the Research Scientist.




Page 1                      Inspection on the Review of Scientific Integrity
                            Issues at Lawrence Berkeley National Laboratory
OBSERVATIONS                      Berkeley has policies and procedures for addressing allegations of
AND CONCLUSIONS                   scientific misconduct, and took appropriate actions upon learning
                                  of the allegations of scientific misconduct on the part of the
                                  Research Scientist. Berkeley conducted an inquiry and an
                                  investigation into allegations of scientific misconduct by the
                                  Research Scientist in accordance with Part 50, Title 42, Code of
                                  Federal Regulations (42 CFR Part 50), Subpart A, “Responsibility
                                  of PHS [Public Health Service] 1 Awardee and Applicant
                                  Institutions for Dealing With and Reporting Possible Misconduct
                                  in science;” and the provision of its own Laboratory Regulations
                                  and Procedures Manual. Berkeley also notified the Department of
                                  Energy and the Department of Health and Human Services that the
                                  Laboratory had initiated an investigation into the allegations of
                                  scientific misconduct. The Office of Research Integrity’s review
                                  of Berkeley’s investigation affirmed Berkeley’s findings and
                                  conclusions that the Research Scientist had engaged in scientific
                                  misconduct.

                                  The Department, however, has no policies or procedures for
                                  addressing allegations of scientific misconduct. In 1996 and 1997,
                                  the Department was represented at the National Science Technical
                                  Council, which submitted recommendations on developing a
                                  Federal policy on scientific integrity to the Office of Science and
                                  Technology Policy (OSTP), Executive Office of the President. On
                                  October 14, 1999, the Federal Register published for public
                                  comments OSTP’s proposed Government-wide Federal policy for
                                  research misconduct for adoption and implementation by agencies
                                  that conduct and support research. Following consideration of
                                  public comments received, OSTP is expected to issue its
                                  Government-wide policy relating to scientific misconduct in the
                                  near future. Agencies will be required to develop and implement
                                  this policy.

                                  Upon learning of Berkeley’s investigation of possible scientific
                                  misconduct by the Research Scientist, senior officials in the
                                  Department’s Office of Science determined that no actions were
                                  necessary because no Department actions were required and
                                  because Berkeley’s investigation was in compliance with
                                  Berkeley’s policies and procedures on allegations of scientific
                                  misconduct. Also, a senior official in the Office of Energy
                                  Efficiency and Renewable Energy (EE Senior Official), was
                                  notified of Berkeley’s investigation. The EE Senior Official did
                                  not bring the issue of misconduct by the Research Scientist to the

1
  The Public Health Service (PHS) is a composite of funding agencies in the Department of Health and Human
Services. References to PHS include organizational units within PHS that have delegated authority to award
financial assistance to support scientific activities.


Page 2                                                                Observations and Conclusions
         attention of supervisors or senior managers in the office. The EE
         Senior Official was not aware of any regulations in the office or in
         the Department that dealt with charges of scientific misconduct
         which would have required a review or specific actions to be taken
         on this matter. Consequently, the Department did not consider
         whether it should: 1) continue funding the work of the Research
         Scientist; 2) initiate recovery of Department funds used in the
         falsified scientific papers; and 3) fund future work of the Research
         Scientist. In fact, after being notified of the investigation, the EE
         Senior Official provided the Research Scientist over $900,000 in
         additional Department funds in subsequent fiscal years for research
         not related to the study investigated by Berkeley.

         In addition, since Berkeley’s Management and Operating Contract
         did not address scientific misconduct issues, the Department could
         not recover funds in the case of the Research Scientist. Berkeley’s
         Management and Operating Contract did not reference the
         disallowance of cost for scientific misconduct, and did not define
         the term “scientific misconduct.” This contract also included what
         had been the Department’s standard general indemnification
         clause. This clause stated that Berkeley would not be liable for
         any delay, failure, loss or damage, judgment or liability unless it
         was determined to have been caused directly by bad faith or willful
         misconduct on the part of some Corporate Officer or Officers of
         Berkeley or of any person acting as Laboratory Director.

         With the publication of the first-ever uniform Federal policy on
         scientific misconduct developed by OSTP, the Department of
         Energy and other Federal agencies that support Federally-funded
         research will be required to create a system for handling
         allegations of misconduct that arise in the research they sponsor
         when the policy is issued. As such, we believe that this will
         provide the Department with an opportunity to:

         •   identify an office that will be responsible for developing and
             implementing the Department’s policies and procedures on
             scientific misconduct consistent with OSTP guidelines when
             issued;

         •   determine how to evaluate alleged misconduct cases and make
             decisions at a management level on what appropriate action
             should be taken;

         •   evaluate its contracts with institutions that receive Department
             funding for research, and incorporate the necessary language




Page 3                                   Observations and Conclusions
             that addresses the responsibilities and rights of the contractor,
             the grantee, the sponsor, and the researcher;

         •   determine what contract modifications should be made to
             incorporate the provisions of new departmental policies and
             procedures for scientific misconduct that describe contractor
             responsibilities for conducting inquiries and investigations; and

         •   determine what contract modifications should be made to
             assure the right of the Department to recover funds that are
             found to have been used in cases of scientific misconduct.




Page 4                                    Observations and Conclusions
Details of Findings
Allegation of Scientific   It was alleged that the Research Scientist had misrepresented his
Misconduct                 research data and had used improper research methods in two
                           scientific papers that were published in two science journals.

Department of Health       Due to its receipt of funding from the Department of Health
and Human Services         and Human Services, Berkeley was subject to the requirements of
Policy for Addressing      42 CFR Part 50, Subpart A, which defined “Misconduct in
Allegations of             Science” as the “fabrication, falsification, plagiarism, or other
Scientific Misconduct      practices that seriously deviate from those that are commonly
                           accepted within the scientific community for proposing,
                           conducting, or reporting research.” This regulation is applicable to
                           each entity that applies for a research, research-training, or
                           research-related grant or cooperative agreement under the Public
                           Health Service Act. This regulation requires each such entity to
                           establish uniform policies and procedures for investigating and
                           reporting instances of alleged or apparent misconduct involving
                           research or research training, applications for support of research
                           or research training, or related research activities that are supported
                           with funds made available under the Public Health Service Act.

Berkeley Policy            Consistent with 42 CFR Part 50, Berkeley has established a
for Addressing             uniform procedure for dealing with instances of alleged
Allegations of             misconduct in scientific research. This procedure is included in
Scientific Misconduct      Berkeley’s Laboratory Regulations and Procedures Manual, 2.05H,
                           Integrity in Research, reprinted in August 1992. This procedure
                           contains provisions for a preliminary inquiry and a formal
                           investigation.

Actions Taken by           In accordance with the provisions of 42 CFR Part 50 and their own
Berkeley Upon              uniform procedure, Berkeley initiated a review of the allegation of
Learning of Possible       scientific misconduct. Berkeley appointed a preliminary inquiry
Scientific Misconduct      committee to review the allegation of scientific misconduct on the
by the Research            part of the Research Scientist. The preliminary inquiry committee
Scientist                  recommended that a formal investigation of the Research
                           Scientist’s research practices be undertaken. Berkeley
                           subsequently appointed a committee to formally investigate the
                           research practices of the Research Scientist.

                           Berkeley’s investigation found that the Research Scientist had
                           intentionally falsified and misrepresented his research data and that
                           the Research Scientist’s actions constituted scientific misconduct.
                           As a result of the investigation, Berkeley imposed disciplinary
                           action against the Research Scientist, which consisted of a letter of
                           censure, two-year probation, and reduction of pay. Because his
                           research “had not integrated into the overall program or
                           complement the goals and objectives of ongoing . . . programs,”



Page 5                                                                    Details of Findings
                        Berkeley sent the Research Scientist a layoff notice due to lack of
                        work. The Research Scientist then filed a grievance over his
                        layoff. Berkeley subsequently settled the Research Scientist’s
                        grievance and the Research Scientist agreed to resign.

                        The Office of Research Integrity conducted an oversight review of
                        Berkeley’s investigation of the Research Scientist. The Office of
                        Research Integrity concurred with Berkeley’s finding that the
                        Research Scientist had engaged in scientific misconduct by
                        intentionally falsifying and fabricating the reporting of his research
                        data.

                        The Research Scientist signed a “Voluntary Exclusion Agreement”
                        with the Office of Research Integrity. As part of the agreement, the
                        Research Scientist neither admitted nor denied the finding of
                        scientific misconduct by the Office of Research Integrity. The
                        Research Scientist, however, voluntarily agreed to exclude himself
                        for a period of three years from any contracting or subcontracting
                        with any agency of the United States Government and from
                        eligibility for, or involvement in, non-procurement transactions (e.g.
                        grants and cooperative agreements) of the United States
                        Government as defined in 45 CFR Part 76 (the “Debarment
                        Regulations”). The Research Scientist also agreed to write to the
                        two science journals requesting retraction of the falsely reported
                        data.

Department Policy       The Department currently has no policy for addressing allegations
for Addressing          of scientific misconduct, nor is there a policy requiring the
Allegations of          Department to develop formal procedures for addressing
Scientific Misconduct   allegations of scientific misconduct. Also, the Department has no
                        policy for reviewing the results of any investigation performed by
                        a contractor or grantee institution. A senior official within the
                        Office of Resource Management, Office of Science, said there are
                        no current Department or Federal guidelines for dealing with
                        charges of scientific or research misconduct. A senior official
                        within the Office of Laboratory Policy, Office of Science, also said
                        that there are no Department Orders or directives on scientific
                        misconduct.

                        However, based on guidelines that will be forthcoming from
                        OSTP, the Department will be required to establish a policy that
                        will address issues related to scientific misconduct. In 1996 and
                        1997, the Department was represented at the National Sciences
                        Technical Council, which had been tasked to define research
                        misconduct and to develop a Federal policy on scientific integrity.
                        In 1997, the National Science Technical Council’s



Page 6                                                                Details of Findings
                       recommendations were submitted to OSTP for review, and on
                       October 14, 1999, the Federal Register published for public
                       comments the proposed Federal policy on research misconduct
                       developed by the OSTP.

                       The policy consists of a definition of research misconduct and
                       guidelines for handling allegations of research misconduct. The
                       policy states that Federal agencies have ultimate responsibility for
                       oversight authority for Federally-funded research, but that research
                       institutions bear primary responsibility for prevention and
                       detection of research misconduct, and for the inquiry,
                       investigation, and adjudication of allegations of research
                       misconduct. Key provisions of this policy include phases of the
                       investigation, adjudication, notification of responsible agencies,
                       and agency follow-up of actions taken by the institution. The
                       Federal Register states that following consideration of the public
                       comments received, agencies will be directed to implement the
                       policy. This policy will require the Department to establish a
                       policy and a process for addressing issues related to scientific
                       misconduct.

                       At the time of our field work, no Department office had been
                       assigned the responsibility for developing and implementing a
                       Department policy on scientific misconduct that the forthcoming
                       Federal policy will mandate.

Actions Taken by       Department officials who became aware of Berkeley’s
Department Officials   investigation of the Research Scientist for possible scientific
Upon Learning of       misconduct determined that no actions were necessary. As such,
Possible Scientific    senior Department officials were not made aware of this issue,
Misconduct by the      and the Department did not consider whether: 1) the Research
Research Scientist     Scientist’s current work should continue to be funded; 2) the
                       Department should initiate efforts to recover funds used in the
                       alleged falsified scientific papers; or 3) the Department should not
                       provide future funding for the Research Scientist work.

                       Specifically, two senior officials in the Department’s Office of
                       Science said that upon learning of Berkeley’s investigation of the
                       Research Scientist, no action was taken. The officials said no
                       Department actions were required and they determined that
                       Berkeley’s investigation followed established procedures. One of
                       the senior officials held discussions with the Berkeley Laboratory
                       Director, which focused on Berkeley’s compliance with their
                       policy on allegations of scientific misconduct.




Page 7                                                               Details of Findings
                     In addition, the EE Senior Official said that upon learning that
                     Berkeley was conducting an investigation of possible scientific
                     misconduct by the Research Scientist, no action was taken
                     regarding this matter. The rationale provided by the EE Senior
                     Official was that Berkeley’s investigation was still ongoing and
                     that Berkeley’s investigation would be reviewed by the Office of
                     Research Integrity. Also, the EE Senior Official said any decisions
                     by Berkeley regarding the Research Scientist could be changed by
                     the Office of Research Integrity. According to the EE Senior
                     Official, no discussions were held with any supervisor or anyone in
                     the Department because there were no regulations in the
                     Department that dealt with charges of scientific misconduct.

                     The EE Senior Official said that Berkeley’s investigation found
                     that the Research Scientist had falsified his research data. In the
                     opinion of the EE Senior Official, the Research Scientist “simply
                     misrepresented his data;” and that this opinion was shared by three
                     of the Research Scientist’s colleagues whom the Research Scientist
                     had selected to conduct an independent review of his work.
                     According to the EE Senior Official, the Research Scientist’s
                     action did not constitute falsification.

                     The EE Senior Official said that by 1995, the Department no
                     longer had interest in the research projects which contained data
                     that the Research Scientist had allegedly falsified. As a result,
                     actions were taken to stop funding the Research Scientist’s work
                     that was involved in the allegations. Funding research in other
                     areas that were conducted by the Research Scientist, however,
                     continued. The EE Senior Official said the Research Scientist’s
                     research on other areas, which had been published, was
                     independently verified and has not been challenged.

Recovery of          Berkeley’s funding records show that from 1989 to 1991 the
Department Funds     Department awarded Berkeley approximately $499,000 in support
Used by the          of the research conducted by the Research Scientist. A Deputy
Research Scientist   Director at Berkeley said that in all likelihood this money was used
                     by the Research Scientist to develop the research data that the
                     Research Scientist falsely reported.

                     The Department does not have the contractual ability to recover its
                     funds used by the Research Scientist in the development of the
                     scientific papers that contained the misrepresented data.
                     Specifically, Berkeley’s Management and Operating Contract that
                     was in effect from October 1992 to September 1997, when
                     Berkeley’s investigation concluded that the Research Scientist was
                     guilty of scientific misconduct, did not reference disallowance of



Page 8                                                            Details of Findings
         cost for research involving scientific misconduct. Additionally, the
         Management and Operating Contract contained what has been the
         Department’s general indemnification clause which stated that
         Berkeley “shall not be liable for and the Government shall
         indemnify and hold the University harmless against any delay,
         failure, loss or damage, judgment or liability . . . and any expenses
         . . . connected with the work, including any loss or . . . any alleged
         liability of any kind, and for any cause whatsoever arising out of or
         connected with the work.” The indemnification clause also stated
         that the Government is obligated whether any employee of
         Berkeley is responsible, unless any such delay, failure, loss,
         expense or damage should be determined to have been caused
         directly by bad faith or willful misconduct on the part of some
         Corporate Officer or Officers of Berkeley or of any person acting
         as Laboratory Director. The contract defined “officer or officers of
         the Regents of the University of California” as the President of the
         Board of Regents (Governor of California), Chairman, Vice
         Chairman, General Counsel, Secretary, and Treasurer of The
         Regents.

         A senior official at the Oakland Operations Office told us that
         scientific misconduct is not defined in Berkeley’s Management and
         Operating Contract or in the Department of Energy Acquisition
         Regulations. The senior official said that the Department has not
         established a definition for “scientific misconduct.” The senior
         official also said that Berkeley’s Management and Operating
         Contract from October 1992 to September 1997 contained an
         indemnification clause which would have held Berkeley harmless
         of any liability for scientific misconduct committed during this
         period by either the Research Scientist or any Berkeley research
         scientist. The senior official said that it was therefore not possible
         for the Department to recover funds that were used to support the
         Research Scientist’s work for scientific misconduct reasons.

         The senior official at the Oakland Operations Office also said that
         Berkeley’s current Management and Operating Contract, which
         took effect in October 1997, no longer contains the indemnification
         clause.




Page 9                                                 Details of Findings
RECOMMENDATIONS   We recommend that the Deputy Secretary:

                  1. Select a Department office that will be responsible for
                     developing and implementing the Department’s policies and
                     procedures on scientific misconduct consistent with OSTP
                     guidelines when issued.

                  We recommend that the Director, Office of Procurement and
                  Assistance Management, in coordination with the General
                  Counsel:

                  2. Modify current Management and Operating Contracts to
                     incorporate those provisions of the Department’s policies and
                     procedures for addressing alleged scientific misconduct that
                     describe contractor responsibilities for conducting inquiries and
                     investigations when these policies and procedures are issued.

                  3. Modify current Management and Operating Contracts to
                     require the Department to recover funds used to support
                     research when the Department determines that there has been
                     scientific misconduct.




Page 10                                                        Recommendations
MANAGEMENT   The General Counsel responded to the draft report on
REACTION     behalf of the Director, Field Management Council, the General
             Counsel, and the Director, Office of Management and
             Administration. The General Counsel concurred with
             Recommendation 1. In addition, the Under Secretary for Energy,
             Science and Environment, has determined that the Office of
             Science will be the lead organization administering the research
             misconduct review process for the Department and the National
             Nuclear Security Administration.

             The General Counsel also concurred “in principal” with
             Recommendation 2. The General Counsel stated that “depending
             on the approach used to establish and implement policies and
             procedures on scientific misconduct, a rulemaking may be
             necessary before applying these requirements to the contractors. If
             these policies are implemented through the issuance of a
             Department of Energy directive, the directive’s requirements will
             be incorporated into existing management and operating contracts
             pursuant to the process set forth in the contract clause found at 48
             CFR § 970.5204-78.”

             Regarding Recommendation 3, the General Counsel stated that the
             Department will ensure that any new Government-wide policy
             applicable to the executive branch and relating to scientific
             misconduct is incorporated into the Department’s management and
             operating contracts, as well as any modification to Government-
             wide cost principles developed in response to the new policy.
             However, the Department does not intend to deviate from the cost
             principles generally applicable to Government contracting by
             establishing a unique Department of Energy contract clause
             governing reimbursable costs.

             The General Counsel also stated that decisions about the
             appropriate sanction (e.g., disallowance of costs, reduction in fee,
             debarment) for scientific misconduct should be made on a case-by-
             case basis and should take into consideration the circumstances of
             the misconduct, the sanctions already imposed by the contractor on
             the scientists involved, and actions considered or taken by other
             agencies investigating the same or similar misconduct.


INSPECTOR    We consider management’s comments to be responsive to our
COMMENTS     recommendations.




Page 11                       Management Reaction/Inspector Comments
Appendix A
SCOPE AND     In conducting this inspection, we interviewed contractor officials
METHODOLOGY   from Lawrence Berkeley National Laboratory and Oak Ridge
              National Laboratory. We also interviewed Department officials
              from Headquarters and the Oakland Operations Office, and
              officials from the Office of Research Integrity, Department of
              Health and Human Services.

              As part of our inspection, we reviewed the following pertinent
              records and documents: 1) The Research Scientist’s personnel file
              at Lawrence Berkeley National Laboratory; 2) Department
              Directives; 3) Berkeley’s Management and Operating Contracts
              from October 1992 to September 1997 and from October 1997 to
              September 2002; 4) Berkeley’s funding and research records on
              projects conducted by the Research Scientist; 5) the report of
              investigation on the Research Scientist for scientific misconduct
              completed by Berkeley and the review by the Office of Research
              Integrity; 6) the October 14, 1999, Federal Register; 7) the Energy
              Policy Act of 1992 regarding the Electric and Magnetic Fields
              Research and Public Information Dissemination Program; and 8)
              42 CFR Part 50.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 12                                              Scope and Methodology
                                                                    IG Report No. DOE/IG-0478

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we nay
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
